NO. _____

In the Supreme Court of the United States
RICKEY NEWSOME,
Petitioner,
–v–

RSL FUNDING, LLC; RSL SPECIAL-IV, LIMITED PARTNERSHIP,
Respondents.
On Petition for Writ of Certiorari to
The Supreme Court of Texas

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY
ENFORCEMENT OF JUDGMENT
EARL S. NESBITT

Supreme Court Bar No. 310166

COUNSEL OF RECORD FOR PETITIONER RICKEY NEWSOME
NESBITT, VASSAR & MCCOWN, LLP
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TEXAS 75001
(972) 371-2411
ENESBITT@NVMLAW.COM

July 31, 2019

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT

– Page 1

TABLE OF CONTENTS
TABLE OF CONTENTS ............................................................................................. 2
TABLE OF AUTHORITIES ....................................................................................... 3
I.

BACKGROUND AND PROCEDURAL HISTORY ........................................... 4

II.

RSL PUSHES FOR IMMEDIATE ARBITRATION ......................................... 6

III.

RELEVANT AUTHORITIES ......................................................................... 14

IV.

THE ARBITRATION SHOULD BE STAYED PENDING THIS
COURT’S ACTION ON NEWSOME’S PETITION FOR WRIT
OF CERTIORARI ........................................................................................... 15

V.

NEWSOME WILL BE PREJUDICED AND WILL INCUR
SERIOUS HARDSHIP IF THE STAY IS NOT GRANTED ........................... 18

VI.

PRAYER ......................................................................................................... 22

CERTIFICATE OF SERVICE .................................................................................. 24

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 2

Cases

TABLE OF AUTHORITIES

First Options of Chicago, Inc. v. Kaplan, 514 U.S. 938, 943 (1995) .............................. 17
Hollingsworth v. Perry, 558 U.S. 183, 190, 130 S. Ct. 705, 175 L. Ed 2d 657 (2010) 14
Lucas v. Townsend, 486 U. S. 1301, 1304, 108 S. Ct. 1763, 100 L. Ed. 2d 589 (1988)
............................................................................................................................................. 14, 21

Rostker v. Goldberg, 448 U.S. 1306, 1308, 101 S. Ct. 1, 65 L. Ed. 2d 1098 (1980).... 14
Volt Info. Scis. v. Bd. Of Tr., 489 U.S. 468, 479 (1989) .................................................... 17
Wembley Inv. Co. v. Herrera, 11 S.W.3d 924, 926-927 (Tex. 1999) ................................ 5
Statutes
28 U.S.C. § 2101 (c) ...................................................................................................... 14
TEX. CIV. PRAC. & REM. CODE ANN. § 141.001 et. seq. .................................................. 5
TEX. CIV. PRAC. & REM. CODE. ANN. 141.004 .............................................................. 15
Rules
Supreme Court Rule 22 ............................................................................................... 14
Supreme Court Rule 23 ............................................................................................... 14
Tex. R. App. P. 18.2 ..................................................................................................... 13

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 3

To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Fifth Circuit.
I.
1.

BACKGROUND AND PROCEDURAL HISTORY

In December of 2018, the Texas Supreme Court reversed the decisions

of the 193rd District Court of Dallas County, Texas (the “193rd Court”) and the Fifth
District Court of Appeals of Texas (the “Dallas Court of Appeals”) denying
Respondent RSL Funding, LLC’s (“RSL”) motion to compel arbitration in this case.
(A copy of the Texas Supreme Court’s opinion [the “Tex. Sup. Ct. Opinion”] and
judgment [the “Tex. Sup. Ct. Judgment”] rendered December 21, 2018, the denial of
Petitioner Rickey Newsome’s Motion for Rehearing on March 29, 2019, and the
mandate issued by the Texas Supreme Court on March 29, 2019 [the “Tex. Sup. Ct.
Mandate”] are included in the Appendix [App. 1-4])
2.

Petitioner Rickey Newsome (“Newsome”) timely filed a Petition for Writ

of Certiorari (the “Newsome Petition”) with the Supreme Court of the United States
on June 27, 2019. The case was docketed by the Clerk of the Supreme Court on July
3, 2019.

The Newsome Petition, which seeks to have this Court review (and

ultimately reverse) the decision/judgment of the Texas Supreme Court, remains
pending with this Court. RSL waived its right to file a response to the Newsome
Petition, which has been set for a Conference by the Court on October 1, 2019.
3.

The underlying case involves a bill of review filed by Petitioner

Newsome seeking to set aside and vacate two conflicting court orders signed by the
193rd Court in a structured settlement transfer proceeding, which proceeding had

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 4

originally been filed by Respondent RSL in accordance with the Texas Structured
Settlement Protection Act, TEX. CIV. PRAC. & REM. CODE ANN. § 141.001 et. seq. (the
“Texas SSPA”)1. The Texas SSPA provides, in part, as follows:
No direct or indirect transfer of structured settlement payment rights shall be
effective and no structured settlement obligor or annuity issuer shall be
required to make any payment directly or indirectly to any transferee of
structured settlement payment rights unless the transfer has been approved
in advance in a final order based on express findings by the court . . .
4.

The 193rd Court approved a proposed transfer of structured settlement

payment rights by Newsome to RSL in October 2013 and signed a final
order/judgment (the “Order Approving Transfer”) in accordance with the Texas SSPA.
The 193rd Court included a condition (the “Funding Condition”) in the Order
Approving Transfer, which required RSL to pay Newsome $ 53,000 if the transaction
was funded within ten days and $ 106,000 if the transaction was funded after 10 days.
RSL did not comply with the Funding Condition and did not pay Newsome any money
at all.
5.

In August of 2014, RSL proposed securing a new order from the 193rd

Court, which would remove the Funding Condition, and promised to pay Newsome
the $ 53,000 within 10 days. RSL submitted a Corrected Order Approving Transfer
Nunc Pro Tunc (the “Nunc Pro Tunc Order”) in September 2014 and the 193rd Court
improperly signed same. Still RSL refused to pay. Mr. Newsome then retained
counsel who made a written demand on RSL, which responded by filing a new lawsuit

A bill of review is an independent equitable action brought by a party to a previous suit who seeks to
set aside a judgment that is no longer subject to a motion for new trial or appealable. Wembley Inv.
Co. v. Herrera, 11 S.W.3d 924, 926-927 (Tex. 1999).
1

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 5

in Harris County, Texas. Newsome promptly filed the bill of review in the 193rd
Court to set aside and vacate both orders. RSL sought to compel arbitration in the
bill of review proceeding and Newsome opposed arbitration. The 193rd Court denied
RSL’s motion to compel arbitration and the Dallas Court of Appeals affirmed. RSL
appealed to the Texas Supreme Court.
II.
6.

RSL PUSHES FOR IMMEDIATE ARBITRATION

On December 17, 2018, four (4) days before the Texas Supreme Court

rendered its decision in this case, the CEO of RSL, Stewart Feldman, wrote to
Arbitrator Scott Link. (App. 5, the “December 14 Letter”). (The letter is dated
December 14, but was e-mailed on December 17, 2019.)
7.

In the December 14 Letter, Mr. Feldman, while purporting to address

the “status” of the case, made arguments and contentions about the underlying
proceedings and the alleged actions of Newsome and his counsel, who Feldman
claimed had improperly delayed the arbitration and complained that Newsome had
“caused immense expense to RSL which it seeks to recover [from Newsome] in
arbitration.”

(App. 5).

Mr. Feldman also complained about the trial judge’s

“unusually aggressive actions to prevent” arbitration. (App. 5). The “unusually
aggressive actions” of the trial judge consisted of: (i) enjoining RSL from pursuing a
motion to compel arbitration in the newly (and improperly) filed Harris County
lawsuit; and (ii) denying RSL’s motion to compel arbitration. The December 14 Letter
went on to note that “RSL believes a favorable opinion enforcing RSL’s rights to
arbitrate will be issued relatively soon” (by the Texas Supreme Court) and “[i]n

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 6

anticipation of Mr. Newsome being compelled to arbitrate, RSL wants to make sure
Judge Link . . .” will proceed with the arbitration quickly. (App. 5).
8.

Thus, RSL sought to fast-track arbitration in this case even before the

Texas Supreme Court had rendered a decision. The arbitrator responded to Mr.
Feldman’s letter within 10 minutes, confirming that he was ready to proceed with the
arbitration. (App. 6). The Texas Supreme Court rendered its decision 4 days later.
9.

The Tex. Sup. Ct. Opinion, Tex. Sup. Ct. Judgment, and Tex. Sup. Ct.

Mandate directed the 193rd Court to issue an order consistent with the
decision/opinion of the Texas Supreme Court and to grant RSL’s motion to compel
arbitration. The Texas Supreme Court had written in its opinion that it had “no
choice but to send this dispute to arbitration for the arbitrator to at least decide
arbitrability.” (App. 1, Tex. Sup. Ct. Opinion, p.9).
10.

When the Tex. Sup. Ct. Opinion was issued on December 21, Mr.

Feldman again emailed Arbitrator Link pressing for immediate arbitration.
Arbitrator Link responded “I am ready to arbitrate this matter” and requested dates
in January 2019 when the arbitration could go forward. (App. 7, 8).
11.

Later that same day an attorney for RSL, Mr. Paredes, e-mailed the

undersigned counsel for Mr. Newsome, Earl Nesbitt, noting that the arbitrator
“would like to get this proceeding moving forward.” (App. 9). The undersigned, who
was on a family vacation, responded promptly noting that he was on vacation and
was not in the office, had not had the opportunity to review the decision thoroughly
or discuss it with Mr. Newsome, had not been engaged to represent Mr. Newsome in

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 7

an arbitration, and would be unable to address this matter until his return to his
office. (App. 10).
12.

On January 2, 2019, in response to a follow-up e-mail from Mr. Paredes,

Mr. Nesbitt informed RSL (via Mr. Paredes) and Arbitrator Link (via a cc, as Mr.
Paredes had copied Arbitrator Link on his e-mail) that Newsome would be seeking
rehearing in the Texas Supreme Court. (App. 11). Mr. Nesbitt also informed RSL
that he had not yet been retained to represent Mr. Newsome in the arbitration and,
in any event, Mr. Newsome would not be moving forward with an arbitration until
after he had exhausted all appellate options. (App. 11).
13.

On March 29, 2019, the Texas Supreme Court denied Mr. Newsome’s

motion for rehearing. (App. 3). Mr. Paredes e-mailed Arbitrator Link that day, again
seeking to fast track the arbitration. (App. 12). Arbitrator Link responded that he
was “ready to start the arbitration process.” (App. 13). Mr. Paredes then contacted
Arbitrator Link’s office on April 2, 2019 and proposed a conference call.
14.

That same day Mr. Nesbitt called Mr. Paredes and informed him that

he had not been engaged to represent Mr. Newsome in the arbitration and, more
importantly, that Mr. Nesbitt did continue to represent Mr. Newsome in the litigation
and that Mr. Newsome had not yet exhausted his appellate remedies. Mr. Paredes
was also informed, by phone and in writing, that Mr. Newsome would be seeking
review of the Texas Supreme Court’s decision by the United States Supreme Court.
(App. 14). Mr. Paredes shot back an e-mail again pressing for a speedy arbitration,

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 8

notwithstanding the fact that RSL and Mr. Paredes had been informed that Newsome
was proceeding with an appeal to the United States Supreme Court. (App. 15).
15.

Mr. Newsome, via his counsel, urged the arbitrator (and RSL) that

arbitration should be postponed until the United States Supreme Court made a
decision on Newsome’s Petition for Writ of Certiorari, which at that time had not yet
been filed, but has since been filed and docketed with this Court. In the view of
Newsome, proceeding with an arbitration that could become moot and waste the time
and resources (very limited resources in the case of Newsome) of all parties while the
Newsome Petition is pending with this Court would be extremely imprudent and
highly prejudicial to Mr. Newsome. (App. 16). Nevertheless, the undersigned counsel
did agree to participate in the conference call on April 5, noting that he was not
appearing as counsel in the arbitration case, but rather to protect Mr. Newsome’s
rights and the jurisdiction of the Supreme Court to at least have an opportunity to
consider the Newsome Petition. (App. 16).
16.

Incredibly, Mr. Feldman then contacted Mr. Newsome directly. In an e-

mail dated April 4, 2015, Mr. Feldman acknowledged that he called Mr. Newsome
directly to advise him of the “hearing tomorrow at 3:30 p.m.” (Mr. Feldman was
referring to the conference call that had been scheduled with Arbitrator Link in which
counsel was going to address with the arbitrator whether the arbitration should go
forward while Newsome pursued his appeal to the Supreme Court.) (App. 17).
17.

Mr. Newsome’s version of the phone call he received from Mr. Feldman

was different than Mr. Feldman’s account in his April 4 e-mail. Mr. Newsome noted

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 9

that Mr. Feldman had informed him during the telephone call that Earl Nesbitt was
no longer representing him (Newsome), that an arbitration was taking place on April
5, 2019, and that Mr. Feldman had some money for Mr. Newsome. (App. 18). None
of those statements by Mr. Feldman to Mr. Newsome were accurate.
18.

This occurred despite the fact that in an e-mail dated April 2, 2019, the

undersigned counsel for Mr. Newsome had unequivocally confirmed that he would
participate in the April 5 conference call with RSL and Arbitrator Link. In response
to Mr. Feldman’s e-mail in which he admitted that he had called Mr. Newsome
directly, Newsome’s counsel directed Mr. Feldman not to contact his client directly,
stating as follows:
I will be participating in the conference call tomorrow on behalf of Mr.
Newsome, for the sole purpose, as his litigation counsel in the continuing court
proceedings, to ensure that a premature, improper arbitration does not move
forward at this time and to protect Mr. Newsome’s interests. RSL and Mr.
Feldman knew that I would be participating in the conference call tomorrow,
to protect Mr. Newsome’s interest, yet still Mr. Feldman improperly contacted
my client directly by phone. It is clear to me that he did this for the purpose of
harassing, scaring, and upsetting Mr. Newsome by providing him inaccurate
information.
(App. 19).
19.

During the April 5 conference call, Arbitrator Link indicated that he was

not going to move forward with an arbitration while legal proceedings were ongoing
relative to whether arbitration would be compelled or not.

Prior to that call,

Arbitrator Link sent an e-mail in which he stated that he was setting a hearing date
for the arbitration based on the Texas Supreme Court ruling. He also noted that if a
party chooses to file an appeal, then the arbitration hearing date would be abated

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 10

until the court ruled. (App. 20).
20.

Based on the April 5 call and Arbitrator Link’s e-mail, Newsome and his

counsel understood that no arbitration was going to move forward until proceedings
in the United States Supreme Court concluded. RSL then decided to pursue an
alternative avenue to compel a premature arbitration.
21.

On Wednesday, May 22, 2019, RSL submitted a proposed Order

Referring Case to Arbitration (the “Arbitration Order”) to the 193rd Court, via
electronic filing at 3:08 p.m. (App. 21). In doing so, RSL’s lawyers failed to comply
with Dallas Local Rule 2.08, which requires a lawyer to tender to opposing counsel a
draft of a proposed order in a contested matter at least two working days before the
order is submitted to the Court. Newsome’s counsel was not provided the opportunity
to review or provide comments to the form or substance of the proposed arbitration
order before it was tendered to the Court by RSL.
22.

On Friday, May 24, 2019, Mr. Paredes e-mailed Arbitrator Link

informing him that the trial court had signed an Arbitration Order on May 23, 2019.
(App. 22). Counsel for Newsome, who had been preparing to object to the proposed
order and provide comments to the Court regarding same, learned the order had been
signed from Mr. Parades’ e-mail to Arbitrator Link.
23.

Newsome has since filed a formal objection to the Arbitration Order

submitted by RSL and a motion for a new/amended order, and a hearing on said
objection/motion is set in the 193rd Court on August 12, 2019. To be clear, Newsome
is not asking the 193rd Court to stay the arbitration; rather Newsome is asking the

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 11

trial court to sign an order which is consistent with the decision and judgment of the
Texas Supreme Court. The 193rd Court cannot stay the arbitration pending the
resolution of the Newsome Petition in this court—as that is the purpose of this
Application to Stay. Newsome is simply seeking to have the 193rd Court render an
appropriate and proper arbitration order, consistent with the Tex. Sup. Ct. Opinion
and Texas law.
24.

After securing the Arbitration Order, RSL again pressed the arbitrator

for the arbitration to commence immediately, this time relying on the Arbitration
Order, even though nothing had changed relative to Newsome’s intention to file a
Petition for Writ of Certiorari with the Supreme Court. (App. 22).
25.

On May 29, 2019, Arbitrator Link responded to all counsel indicating

that he was preparing to proceed with the arbitration. (App. 23).
26.

The “hook” that RSL is using to try and compel a hasty arbitration is the

false suggestion by RSL that Arbitrator Link’s “jurisdiction” to arbitrate will expire
unless the arbitration is completed within four months after the order compelling
arbitration is signed. (App. 5, 22, 24). 2 That is simply not true, as the “four-month”
provision upon which RSL relies provides that the arbitration should be concluded
within four months from the written demand for arbitration being made. RSL made

The arbitration provision in the Transfer Agreement relied on by RSL in seeking to compel arbitration
provides as follows: “If the first arbitration organization or arbitrator which receives a written demand
for arbitration of the dispute from any interested party does not complete the arbitration to finality
within four months of the written demand, any interested party then may file a written demand for
arbitration of the dispute with another neutral arbitration association or arbitrator, with the prior
arbitration association or arbitrator then being immediately divested of jurisdiction, subject to a
decision being rendered by the replacement arbitration association within four months of the written
demand being filed with the replacement arbitration group.”

2

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 12

its written demand for arbitration in November of 2013. RSL’s contention that the
four month provision is tied to the signing of the arbitration order is wrong.
27.

Furthermore, the language cited by RSL does not divest the designated

arbitrator of “jurisdiction” upon the expiration of the four months.

Instead, it

provides that if arbitration is not completed within four months, “any interested party
then may file a written demand” with another neutral arbitration association or
arbitrator, “with the prior arbitration association or arbitrator then being divested of
jurisdiction.” (App. 24; emphasis added). Additionally, Newsome has confirmed in
writing (to the arbitrator and to RSL) that Newsome will not object to arbitration, if
and when it is compelled, based on the fact that the arbitration is not concluded
within the alleged 4 month window cited by RSL.
28.

Notwithstanding his prior statement that the arbitration would be

abated while the case was on appeal, the filing and docketing of Newsome’s Petition
for Writ of Certiorari and Arbitrator Link is now moving forward with the arbitration.
A Scheduling Order has been signed by Arbitrator Link which includes quick
deadlines and a final arbitration hearing on October 20-21, 2019. (App. 25).
29.

Newsome requested that the Texas Supreme Court recall and/or stay

enforcement of its mandate in a motion filed in accordance with Tex. R. App. P. 18.2
on June 5, 2019. That motion was denied by the Texas Supreme Court on June 28,
2019 (App. 26). A significant deadline for Mr. Newsome relative to the arbitration is
looming for August 9, 2019.
30.

It is the actions of RSL in trying to force a premature, and possibly

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 13

unnecessary and futile, arbitration that has necessitated the filing of this Application
to Stay.
III.
31.

RELEVANT AUTHORITIES

28 U.S.C. § 2101 (c) provides that the “execution and enforcement” of a

judgment may be stayed by a justice of the Supreme Court for a “reasonable time to
enable the party aggrieved to obtain a writ of certiorari from the Supreme Court.”
Thus, this application is filed in accordance with 28 U.S.C. § 2101(c) and Supreme
Court Rule 22 and 23.
32.

To obtain a stay pending the filing and disposition of a petition for a writ

of certiorari, an applicant must show (1) a reasonable probability that four Justices
will consider the issue sufficiently meritorious to grant certiorari; (2) a fair prospect
that a majority of the Court will vote to reverse the judgment below; and (3) a
likelihood that irreparable harm will result from the denial of a stay. In close cases
the Circuit Justice or the Court will balance the equities and weigh the relative harms
to the applicant and to the respondent. Hollingsworth v. Perry, 558 U.S. 183, 190,
130 S. Ct. 705, 175 L. Ed 2d 657 (2010); Lucas v. Townsend, 486 U. S. 1301, 1304, 108
S. Ct. 1763, 100 L. Ed. 2d 589 (1988) (Kennedy, J., in chambers); Rostker v. Goldberg,
448 U.S. 1306, 1308, 101 S. Ct. 1, 65 L. Ed. 2d 1098 (1980); (Brennan J., in chambers).
(hereafter referred to as the “Stay Factors”).
33.

Newsome files this application seeking a stay from this Court of the

Texas Supreme Court’s judgment and a stay of the arbitration for a reasonable period
of time to allow Newsome (as the party aggrieved by the Tex. Sup. Ct. Opinion) to
PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 14

obtain a writ of certiorari from the Supreme Court. Failure to secure said stay will
unfairly prejudice and harm Mr. Newsome and, if the Petition for Writ of Certiorari
is ultimately granted, would result in a moot and useless arbitration and cause all
parties to incur unnecessary expenses and attorneys fees.
IV.

34.

THE ARBITRATION SHOULD BE STAYED PENDING THIS
COURT’S ACTION ON NEWSOME’S PETITION FOR WRIT OF
CERTIORARI

Since Petitioner Newsome has already filed his Petition for Writ of

Certiorari, Newsome would refer Justice Alito and the Court to the Newsome Petition
for a thorough discussion of the reasons why the Newsome Petition should be granted
and for purposes of addressing the Stay Factors (1) and (2).
35.

Briefly, the grounds for Newsome’s Petition is that in reversing the

lower courts the Texas Supreme Court disregarded its own legal precedents and
binding precedents of the United States Supreme Court, and ignored or misconstrued
critical provisions of the Texas SSPA and the Federal Arbitration Act, as well as the
written agreement of the parties (the Transfer Agreement). The case does not involve
a typical, arms-length contract, where the parties are generally free to agree to
arbitrate any issue, including the issue of arbitrability. With respect to a transfer of
structured settlement payments, the Texas Legislature has provided that a contract
to transfer payments is not “effective” unless and until it is approved by a Texas court,
in accordance with TEX. CIV. PRAC. & REM. CODE. ANN. 141.004. That statutory
provision requires a final court order from a Texas court, which court order must
include specific findings, in order for a contract to be formed.
36.

In this case, the trial court signed two, conflicting orders, which

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 15

purported to be final orders under the Texas SSPA. The second order (the Nunc Pro
Tunc Order), which was signed after the trial court had lost plenary power and
jurisdiction over the case and is thus void as a matter of Texas law, purported to
replace the first order, the Order Approving Transfer. RSL’s actions were conflicting,
in that RSL relied on and used the Order Approving Transfer to take control of Mr.
Newsome’s structured settlement payments, but refused to comply with the Funding
Provision included in same. Then, RSL secured the Nunc Pro Tunc Order, which in
fact was not a nunc pro tunc order at all, under the false promise that RSL would pay
Mr. Newsome. RSL never paid Mr. Newsome under either order. In order to regain
control of his structured settlement payments Newsome filed the bill of review
proceeding, and sought to set aside and vacate both orders, albeit under different
theories. Otherwise, Newsome’s payments would have been lost to RSL, without him
receiving anything at all.
37.

If Newsome is successful in his bill of review—which is the exclusive

process and procedure under Texas law by which the 193rd Court’s two final orders
could be attacked, set aside, and vacated—then clearly there could be no “effective”
transfer of structured settlement payments under Texas law. If there is no transfer
there is no dispute over what payments have been transferred (none) and what
payments RSL is entitled to receive (none).

And there is no contract, and no

arbitration agreement, and nothing to arbitrate.
38.

The case involves significant Federal and State legal and statutory

issues and implicates statutes enacted by the Texas Legislature and legal precedents

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 16

of both this Court and the Texas Supreme Court. The case also presents novel issues
relative to the interplay between the Federal Arbitration Act and state contract law
and a state structured settlement protection statute, including the fundamental, and
required, initial court determination of whether a contract has been formed and is
valid and effective, when the only way, under applicable Texas statutes (the Texas
SSPA) and state contract law, that a contract to transfer and assign structured
settlement payments may be formed, effective and valid is by the approval of said
contract by a state court in strict compliance with the Texas SSPA.
39.

The case will also have a significant impact beyond Texas and the Texas

SSPA. The interplay between arbitration provisions, arbitration law, and structured
settlement transfer statutes, currently enacted in 49 states and the District of
Columbia, all of which require court approval of transfers in a final judgment
rendered by a state court, not an arbitrator, is an important issue that should be
decided by this Court.
40.

Arbitration is a way to resolve those disputes—but only those disputes—

that the parties have agreed to arbitrate. First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938, 943 (1995). Arbitration under the FAA is a matter of consent, not
coercion, and the parties are generally free to structure their arbitrations as they see
fit; just as they may limit by contract the issues which they will arbitrate. Volt Info.

Scis. v. Bd. Of Tr., 489 U.S. 468, 479 (1989). Here, the parties agreed in the Transfer
Agreement that a “court must approve Assignor’s [Newsome’s] sale, assignment and
transfer” of the structured settlement payments. (App. 24, p.1). Thus, not only does

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 17

a Texas statute require that the transaction be approved by a Texas court in
accordance with the Texas SSPA, in order for a contract (the Transfer Agreement) to
be formed until and unless it received the statutorily required court approval, but
RSL and Newsome expressly reserved the issue of court approval of the transfer to a
court (not an arbitrator). The Newsome Petition seeks, in part, to have this Court
enforce the parties’ agreement as to which issues would and would not be arbitrated.
Newsome maintains that there is a “reasonable probability” that four Justices will
consider the issue sufficiently meritorious to grant certiorari and that there is a fair
prospect that a majority of this court will vote to reverse the judgment of the Texas
Supreme Court, and reinstate the judgments of the 193rd Court and the Dallas Court
of Appeals.
V.
41.

NEWSOME WILL BE PREJUDICED AND WILL INCUR SERIOUS
HARDSHIP IF THE STAY IS NOT GRANTED
A stay is warranted because Newsome will be prejudiced and incur

substantial hardship and unnecessary expense if he is forced to arbitrate with RSL
while the Newsome Petition is pending before this Court. This is painfully evident
from the nature of the proceedings and the actions of RSL, detailed herein. RSL is
attempting to exploit and leverage, to Newsome’s profound financial and personal
detriment, the legal and strategic advantage it has received as a result of the Tex.
Sup. Ct. Opinion and the arbitrator’s decision to proceed with the arbitration
notwithstanding Newsome’s pending Petition for Writ of Certiorari.
42.

As evidenced by RSL’s constant pestering of the arbitrator to move

forward immediately with the arbitration, RSL seeks to press its legal, financial, and
PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 18

strategic advantage. Newsome does not have the financial resources to fight RSL on
two fronts – at the Supreme Court and in an arbitration that could very well be
unnecessary, futile, and become moot. Frankly, Newsome does not have the resources
to battle RSL at all. The arbitrator has confirmed that he will charge the parties
(RSL and Newsome) monthly for his services as arbitrator—at $350.00 per hour
($175.00 per hour, per side). Additionally, Newsome continues to incur attorneys fees
with his counsel in connection with the proceedings before this Court and the
arbitrator. If this Court were to grant Newsome’s Petition and take up this case,
Newsome will incur attorneys fees and arbitration fees that will have been entirely
wasted. If the Supreme Court grants Newsome’s Petition, who is going to compensate
Newsome for the attorneys and arbitration fees incurred in the arbitration? How will
Newsome recover the fees and expenses of arbitration should the Supreme Court
reverse the Texas Supreme Court?
43.

Newsome’s lawyer, who is basically handling the case pro bono at this

point, does not have the resources to simultaneously represent Newsome both at the
Supreme Court and in an arbitration. If the undersigned counsel does not agree to
represent Newsome in both the pending appeal to this Court and in the premature
arbitration, Newsome would be unable to oppose RSL on his own as RSL presses
forward with arbitration. And that is precisely what RSL hopes to accomplish by
pushing for the hasty arbitration.
44.

The choices for Newsome’s counsel are to: (i) fight RSL and its army of

lawyers on two fronts, on appeal to the Supreme Court and in an arbitration; (ii)

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 19

abandon Newsome in the arbitration, in the Supreme Court, or both; or (iii) seek relief
from this Court in the form of this application, to have this Court stay the arbitration
pending resolution of the Newsome Petition. Newsome will suffer irreparable harm
if the Application for Stay is denied, especially if the Newsome Petition is ultimately
granted by this Court and the judgment of the Texas Supreme Court is overruled. He
will have been forced to incur substantial attorneys and arbitration fees for no reason.
Moreover, if the Newsome Petition is denied, the arbitration can proceed without
further delay. Since this Court has scheduled the Newsome Petition for conference
on October 1, 2019, there appears to be a strong likelihood that this Court will be
making a decision on the Newsome Petition in that approximate time period.
Obviously, if the Newsome Petition is granted, the arbitration should not go forward
until this Court decides the case. In any event, maintaining the status quo for three
months or so, until this Court makes a decision on the Newsome Petition is
appropriate and will not unduly prejudice RSL Funding.
45.

Newsome has a viable appeal to the Supreme Court. The undersigned

counsel has been willing to pursue that appeal on his behalf. Without a stay, RSL
will likely prevail because Newsome will have been deprived of his right: (i) to pursue
an appeal; and/or (ii) if it ultimately comes to be that he must prematurely arbitrate,
be represented by counsel in arbitration. RSL intends to prevail not on the merits of
its legal argument, or by presenting a compelling case to the arbitrator, but rather
through exerting economic and legal pressure and by squeezing Newsome and his
counsel. Such tactics should not be sanctioned or allowed by this Court.

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 20

46.

On the flip side, RSL will not suffer any harm if the arbitration is stayed,

because Newsome is not receiving any of the disputed structured settlement
payments at this point. RSL is not either, but RSL did not pay anything for those
payments AND RSL has already collected $ 8,800 of Newsome’s structured
settlement payments, from February 2014 to May of 2015, which RSL captured using
the original Order Approving Transfer.

RSL advanced Newsome $ 1,000, but

otherwise Newsome has received nothing for agreeing to assign to RSL $105,600 in
future payments, other than the privilege of litigating with RSL for almost 5 years.
The servicing agent and annuity issuer obligated to make the payments to Newsome
are currently holding over $ 25,000 in payments and will continue to hold such
payments until this matter is fully and finally resolved.
47.

If the stay is issued, the payments will continue to be held until

resolution of the case (in the Supreme Court or in arbitration if the Supreme Court
declines to hear the case), so neither party will risk losing the intervening payments
to the other in the meantime. Moreover, if the Texas Supreme Court’s judgment is
stayed, neither party will have to incur attorneys and arbitration fees in an
arbitration that could become moot. Fairness, justice, and common sense would all
be well served by staying arbitration until the Supreme Court decides whether to
grant the Newsome Petition.
48.

This Court has held that “in close cases” relative to an application for

stay, the Circuit Justice or the Court will balance the equities and weigh the relative
harms to the applicant and to the respondent. Lucas, 486 U.S. at 190. Here, the

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 21

equities clearly weigh in favor of Newsome and in favor of granting this Application
to Stay, at least until this Court makes a decision on the Newsome Petition.
49.

While RSL and its lawyers press their strategic advantage, one can

hardly envision a more appropriate case for a stay to provide Newsome the
opportunity to pursue the Newsome Petition with the Supreme Court and allow all
parties to delay a potentially moot and futile arbitration.
50.

RSL, citing some unspecified “emergency,” obtained a stay of

proceedings in the trial court pending appeal to the Dallas Court of Appeals while
RSL pursed its appeal. (App. 27). What is good for the goose is good for the gander.
Justice and fairness mandate Newsome being afforded the same accommodation (the
stay) here.
VI.

PRAYER

For the reasons set forth herein, Petitioner Rickey Newsome respectfully
requests this Court to grant this Application to Stay pending disposition of Petitioner
Rickey Newsome’s Petition for Writ of Certiorari. If this Court grants the Petition,
and directs the case to be briefed on the merits and decides to hear the case on appeal,
Newsome requests the Court to continue the stay until the case is decided by this
Court.

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 22

Respectfully Submitted,

/s/ Earl S. Nesbitt
EARL S. NESBITT

COUNSEL OF RECORD FOR PETITIONER
RICKEY NEWSOME
NESBITT, VASSAR & MCCOWN, LLP
15851 DALLAS PARKWAY, SUITE 800
ADDISON, TEXAS 75001
(972) 371-2411
ENESBITT@NVMLAW.COM

July 31, 2019

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 23

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of Petitioner Rickey Newsome’s
Application to Stay Enforcement of Judgment and Appendix in Support of
Application to Stay was served upon the following counsel for Respondent RSL
Funding, LLC on this 31st day of July, 2019 in accordance with Supreme Court Rule
29 and that all parties required to be served with these pleadings were served in
accordance with Supreme Court Rule 29.5.
Via Regular Mail and E-Mail
E. John Gorman
The Feldman Law Firm, LLP
Two Post Oak Central
1980 Post Oak Blvd., Suite 1900
Houston, Texas 77056-3877

/s/ Earl S. Nesbitt
Earl S. Nesbitt

PETITIONER RICKEY NEWSOME’S APPLICATION TO STAY ENFORCEMENT OF JUDGMENT
– Page 24

